No. 20-740
IN THE
SUPREME COURT OF THE UNITED STATES
JIM BOGNET, ET AL.,
Petitioners,
v.
KATHY BOOCKVAR, SECRETARY OF THE COMMONWEALTH OF
PENNSYLVANIA, ET AL.,
Respondents.
On Petition for Writ of Certiorari to the United States
Court of Appeals for the Third Circuit

BRIEF OF RESPONDENTS ARMSTRONG, BEDFORD, BLAIR, CENTRE,
COLUMBIA, DAUPHIN, FAYETTE, HUNTINGDON, INDIANA,
LACKAWANNA, LAWRENCE, MONTOUR, NORTHUMBERLAND,
VENANGO AND YORK COUNTY BOARDS OF ELECTIONS IN
OPPOSITION
Molly E. Meacham, Esquire
Attorney of Record
Babst, Calland,
Clements & Zomnir, P.C.
603 Stanwix Street
Two Gateway Center, 6th Floor
Pittsburgh, Pennsylvania 15222
(412) 394-5614
(412) 586-1071 (Fax)
mmeacham@babstcalland.com
Counsel for Armstrong, Bedford, Blair, Centre, Columbia, Dauphin, Fayette,
Huntingdon, Indiana, Lackawanna, Lawrence, Montour, Northumberland, Venango
and York County Boards of Elections

INTRODUCTION
Pennsylvania’s voter registration statistics reflect an electorate that spans the
political spectrum.

Although Respondent County Boards of Elections and their

county election officials vary in their personal political views, they are firmly united
in a common purpose: to support every eligible voter’s constitutional right to vote.
Each

election

voters

entrust

Respondents

with

safeguarding

their

constitutional right to vote, and taxpayers entrust Respondents with carefully
spending their tax dollars to properly conduct that election. Conducting the 2020
General Election in the middle of a global pandemic required extraordinary efforts by
Respondents. Unfortunately, in the midst of conducting this election, Respondents
were saddled with the additional burden of defending multiple unfounded lawsuits
challenging the election process. Respondents overcame this unnecessary diversion
of resources to conduct a secure and transparent election.
Respondents initially waived their right to respond to this petition in the
interest of carefully stewarding their limited resources. As this Court entered an
order on January 13, 2021 requiring a response, Respondents present the following
brief arguments in opposition.
The 2020 General Election is now over. The results are certified. All elected
officials who prevailed in the 2020 General Election are sworn in. The new President
has been inaugurated. The meritless litigation against Respondents related to the
Pennsylvania election has dwindled to the dregs of this moot case. Respondents

1

respectfully request that this Court finally end the litigation related to the 2020
General Election in Pennsylvania by denying this petition.
ARGUMENT
Not every aspiring litigant is entitled to review by this Honorable Court.
Article III of the United States Constitution requires that an actual case or
controversy exist for a litigant to seek relief from the federal court system, including
this Court. No case or controversy exists here, because Petitioners lack standing and
their case is no longer ripe. Absent these two necessary prerequisites to demonstrate
that a case or controversy exists sufficient to grant them a right to review by this
Court, Petitioners are not entitled to proceed.
In further support of this Opposition, Respondent County Boards of Elections
adopt the reasoning of the Third Circuit Court of Appeals on all issues that support
denial, as well as the arguments made in all respondent briefs advocating for denial
of this petition.
CONCLUSION
For the foregoing reasons, Respondent Armstrong, Bedford, Blair, Centre,
Columbia, Dauphin, Fayette, Huntingdon, Indiana, Lackawanna, Lawrence,
Montour, Northumberland, Venango and York County Boards of Elections
respectfully request that this Petition be denied.

2

Respectfully submitted,
/s/ Molly E. Meacham
Molly E. Meacham, Esquire
Attorney of Record
Babst, Calland, Clements &
Zomnir, P.C.
603 Stanwix Street
Two Gateway Center, 6th Floor
Pittsburgh, Pennsylvania 15222
(412) 394-5614
(412) 586-1071 (Fax)
mmeacham@babstcalland.com
Counsel for Armstrong, Bedford, Blair, Centre, Columbia, Dauphin, Fayette,
Huntingdon, Indiana, Lackawanna, Lawrence, Montour, Northumberland, Venango
and York County Boards of Elections

3

